Re: Shelton vs- Patterson

CERTIFICATE OF SERVICE

BISHOP ANTHONEE J. PATTERSON, hereby certifies a copy of the foregoing
Letter to the Justices of the U. S. Supreme Court in the referenced matter was
served upon the following:
Danielle Banks,Esquire
Stradley Ronon Stevens & Young, LLP
Suite: 2600
2005 Market Street
Philadelphia, PA 19103

Adam Browns Esquire
Stradley Ronon Stevens
& You ng , LLP
Suite 2600
2005 Market Street
Philadelphia, PA 19103-7018

© Rileys Esquire
Stradley Ronon Stevens & Young, LLP
Suite 1600
2Q0t Ma rket Street
Philadelphia, PA 19103

Mark Ohopko, Esquire
Stradley Ronon Stevens
& Young, LLP
Suite 2600
20O| 'Market Street
Philadelphia, PA 19103

(sf Bishop Anthonee J. Patterson
Bishop Anthonie J. Patterson
1544% 25th Street
Jacksonville Florida 32209
(904) 386*3108
Date: June 11, 2020

